HHS/OIG, Audit -"Audit of Blue Cross Blue Shield of North Carolina's Claim for Post Retirement Benefits Costs
to be Incurred After Termination of Its Medicare Contract and Closing of Its Medicare Segment,"(A-07-04-00162)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Blue Cross Blue Shield of North Carolina's Claim for Post Retirement Benefits Costs to be Incurred After
Termination of Its Medicare Contract and Closing of Its Medicare Segment," (A-07-04-00162)
May 24, 2004
Complete
Text of Report is available in PDF format (257 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the allowability of $2,074,473 in post retirement benefit (PRB) costs claimed
for Medicare reimbursement by North Carolina.  The $2,074,473 represents PRB costs that will be incurred subsequent
to the termination of North Carolinas Medicare contract.  The review showed North Carolinas claim for $2,074,473
of PRB costs is unallowable for Medicare reimbursement because the claim represented a retroactive change in accounting
basis and a request for reimbursement of unfunded costs.  We recommended North Carolina withdraw its claim for $2,074,473
of unallowable PRB costs.